OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID’S
MANAGEMENT OF P.L. 480
NONEMERGENCY
MONETIZATION PROGRAMS
AUDIT REPORT NO. 9-000-07-010-P
September 27, 2007




WASHINGTON, D.C.
Office of Inspector General


September 27, 2007

MEMORANDUM

TO:                  Acting DCHA/FFP Director Jonathan Dworken

FROM:                IG/A/PA Director Steven H. Bernstein /s/

SUBJECT:             Audit of USAID’s Management of P.L. 480 Nonemergency Monetization Program
                     (Audit Report No. 9-000-07-010-P)

This memorandum transmits our final report on the subject audit. This capping report includes no
formal recommendations, but all mission recommendations are included in appendix III.

I sincerely appreciate the cooperation and courtesy extended to my staff during this audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

     Audit Objective ............................................................................................................ 3

Audit Findings ................................................................................................................. 4

     P.L. 480 Activities Should Be Better
     Publicized.................................................................................................................... 5

     Other Matters .............................................................................................................. 7

Evaluation of Management Comments ....................................................................... 10

Appendix I – Scope and Methodology ........................................................................ 11

Appendix II – Management Comments ....................................................................... 13

Appendix III – Audit Recommendations ..................................................................... 14

Appendix IV – Worldwide Audit Reports Issued ........................................................ 16
SUMMARY OF RESULTS
This audit, performed by the Office of Inspector General’s Performance Audits Division,
summarizes the results of four audits of USAID’s P.L. 480 nonemergency monetization
activities, valued at approximately $67.9 million. 1 These activities were conducted in
Haiti, Guatemala, Mozambique, and West Africa. In addition to summarizing these
results, Appendix III presents mission recommendations. This report addresses USAID-
wide issues identified during these audits (see page 7).

The objective of this audit was to determine whether USAID’s P.L. 480 nonemergency
monetization activities are achieving selected planned outputs (see pages 3).

Based on the results of the four audits, the audit concluded that only one activity
(USAID/Haiti) was achieving selected planned outputs. Because USAID/Guatemala did
not have any planned outputs associated with P.L. 480 monetization activities, auditors
were unable to answer the audit objective for this mission. USAID/Mozambique was
reportedly surpassing its planned output level; however, the auditors could not validate
the veracity of that mission’s results. USAID/West Africa was marginally not achieving
selected planned outputs (see page 4).

This report does not have any findings with recommendations, but it does emphasize an
issue related to USAID branding and marking (see page 5). Additionally, this report
highlights other matters noted during the audits (see page 7).

Management had no comments on this report.




1
  The total approximate value of the missions’ P.L. 480 nonemergency monetization program
represents the value that the program generated to fund procurement activities; ocean freight,
inland freight, and internal transport, storage, and handling costs; and cooperating sponsors’
administrative costs associated with the food program.


                                                                                            1
BACKGROUND
The Agricultural Trade Development and Assistance Act of 1954, also known as Public
Law 480 (P.L. 480) as amended, is the principal mechanism through which the U.S.
Government implements its international food assistance initiatives. The intent of this
legislation, which has been modified many times, is to promote food security in the
developing world through humanitarian and developmental uses of food aid. Food
assistance provided under P.L. 480 is delivered to foreign countries using three separate
programs: Title I, II, and III. The bulk of this food aid is furnished under Title II and is
administered by USAID to support targeted emergency relief operations and
development projects. Title II projects are implemented through a variety of cooperating
sponsors that include private voluntary organizations, nongovernmental organizations,
and international organizations.

The objective of the Title II food program is twofold: (1) to provide food aid to vulnerable
groups in emergency situations and (2) to promote developmental programs critical to
long-term food security. In other words, the Title II budget supports both emergency and
nonemergency activities. In addition to funding the procurement of agricultural
commodities, Title II funds are used to cover ocean freight, inland freight, and internal
transport, storage, and handling costs. Other resources administered under Title II
include cash grants awarded to cooperating sponsors to help pay for the administrative
costs associated with the food programs they conduct. 2

USAID’s Food for Peace office has primary responsibility for administering the Title II
food program. Food for Peace receives, reviews, and approves proposals from
cooperating sponsors, awards the grants discussed above, and manages funds for
noncommodity program costs, such as ocean freight.

With USAID’s approval, cooperating sponsors may either distribute the commodities
directly to recipients or sell the commodities to generate foreign currency to support local
development programs. The sale of U.S. agricultural commodities by cooperating
sponsors (using proceeds from food assistance to fund USAID programs) is referred to
as monetization. Title II monetization began in 1986 in response to repeated requests by
cooperating sponsors for additional funding to cover foreign currency costs associated
with P.L. 480 food distribution programs. In recognition of these needs, Congress
mandated that USAID permit cooperating sponsors to monetize at least 15 percent of
the total value of Title II nonemergency commodities each year.




2
 Section 202(e) of P.L. 480 authorizes the Food for Peace office to allow additional funding to the
cooperating sponsors to establish new programs under Title II or, if the cooperating sponsors’
Title II funding falls short, to support specific administrative costs for programs in foreign
countries. Because of the limited availability of 202(e) funds, Food for Peace restricts their use to
establishing new programs or supporting specific administrative costs.



                                                                                                   2
AUDIT OBJECTIVE
As part of the Office of Inspector General’s fiscal year 2006 annual audit plan, the
Performance Audits Division conducted this multicountry audit to answer the following
question:

    Are USAID’s P.L. 480 nonemergency monetization activities achieving selected
    planned outputs? 3

Appendix I contains a discussion of the audit’s scope and methodology.




3
  USAID’s Automated Directives System defines output as a tangible, immediate, and intended
product or consequence of an activity within USAID’s control. This term is distinct from “result,”
which USAID defines as a significant, intended, and measurable change in the condition of a host
country, institutions, or other entities that will affect the host country directly or indirectly. Results
are typically broader than USAID-funded outputs and require support from other donors and
partners not within USAID’s control.


                                                                                                        3
AUDIT FINDINGS
Of the four missions audited (USAID/Haiti, USAID/Guatemala, USAID/Mozambique, and
USAID/West Africa), only USAID/Haiti was achieving selected planned outputs for its
third-country monetization funded activities, valued at approximately $2.4 million (the
activities took place in Haiti). Because USAID/Guatemala had no planned outputs
associated with P.L. 480 monetization activities, the auditors were unable to answer the
audit objective for this second mission. USAID/Mozambique, the third mission, was
reportedly surpassing 90 percent of its 92 selected targeted planned outputs. However,
the auditors could not rely upon the veracity of these results because, among other
reasons, the mission had not performed a data quality assessment of the reported data.
USAID/West Africa, the fourth mission, was marginally not achieving selected planned
outputs—only 17 of 22 reviewed outputs, or 77 percent, were achieved.

Regulations that govern the use of P.L. 480 monetization funds allow missions wide
latitude in determining how funds may be used. Funds may be used to support a wide
variety of development activities or to finance the administrative costs of the direct
distribution of food aid, such as transportation and warehousing of commodities.
Accordingly, comparing missions is not practical given the variations in how missions
use monetization funds. Nevertheless, the audits at the four missions revealed positive
measurable results, as well as findings and other matters.

Programs         Showed       Measurable       Results     -
                                                          USAID/Haiti implemented its
Infrastructure Improvement Program projects, which cost about $2.4 million, all financed
through its third-country monetization program. The projects were small ones in which
infrastructure improvements focused on community participation to increase project
sustainability. Catholic Relief Services (CRS) created these projects to rehabilitate
secondary and tertiary roads, bridges, markets, irrigation canals, and parks. Additionally,
CRS created projects to establish systems for potable water, erosion control, and
watershed management. The monetized funds financed six 6-month projects valued at
approximately $400,000 each. The first project commenced in June 2005 and the last
project ended in February 2006. According to mission records and verified through audit
procedures, which included onsite inspections, all of the USAID/Haiti projects were
completed as scheduled. These projects included rehabilitated and improving roads,
irrigation, and water management systems.

At USAID/Guatemala, no development programs were funded by commodity sales and,
consequently, no outputs were defined for USAID/Guatemala’s monetization activities. 4
Monetization proceeds of approximately $12.7 million for fiscal years (FY) 2005 and
2006 were used to defray the mission’s expenses associated with distributing food
assistance under the P.L. 480 Food Security Program and, therefore, contributed
indirectly to achieving the defined outputs for the Food Security Program. The proceeds
were primarily used to fund administrative expenses, such as internal transportation,
handling, labor, storage, and warehousing associated directly with the distribution of
commodities. The proceeds were also used to provide materials for agricultural and
infrastructure projects.


4
    USAID/Guatemala was selected for this audit because of its volume of monetization proceeds.


                                                                                                  4
At USAID/Mozambique, the auditors were unable to determine whether the mission’s
P.L. 480 Title II nonemergency monetization activities were achieving selected planned
outputs, because they could not verify the outputs reportedly achieved. During FY 2005,
the mission’s six cooperating sponsors reported on a total of 92 outputs valued at
approximately $6.5 million. Collectively, they reported surpassing more than 90 percent
of their targeted planned outputs, which included successes in improved farming
techniques. The reported outputs could not be relied upon, however, because the
mission had not performed a data quality assessment. Limited data testing performed
during the audit identified some problems by tracing the reported FY 2005 output data to
source documents. Nevertheless, the audit team observed that many monetization
activities were conducted and, after speaking with the benefactors of these activities,
determined that monetization had successfully improved Mozambicans’ lives by
increasing crop yields and household incomes, improving diets, and shortening the
annual period of food insecurity.

USAID/West Africa’s P.L. 480 nonemergency monetization activities were valued at
about $9.4 million (for FY 2005 and FY 2006). The activities implemented by CRS and
Africare in Burkina Faso were not achieving selected planned outputs related to
agriculture. Only 17 of 22 reviewed outputs, or 77 percent, were achieved. The outputs
not achieved were related to microfinance and education. Several outputs were
achieved by both cooperating sponsors, demonstrating a positive impact in Burkina
Faso. Moreover, the audit found that the program activities were well managed and
supervised by the USAID/West Africa Food for Peace staff.

As detailed above, USAID’s P.L. 480 monetization programs have made some worthy
accomplishments, but the audits found that some of the missions’ operations could be
improved.

P.L. 480 Activities Should Be
Better Publicized

  Summary: Although USAID’s Automated Directives System (ADS) 320 entitled
  Branding and Marking normally requires USAID projects be permanently marked as
  U.S. assistance, the P.L. 480 monetization programs funded at two USAID
  missions were not branded with the USAID logo. This failure occurred because P.L.
  480 program regulations on branding and marking are inconsistent with USAID
  regulations. Consequently, the objectives of USAID’s branding campaign, such as
  enhancing the visibility and value of USAID’s foreign assistance, will not be met.

USAID’s ADS 320 references the Graphics Standards Manual published in January
2005 with specific objectives. According to the Manual, the objectives for USAID’s
standard logo are as follows:

   •   Enhance the visibility and value of USAID’s foreign assistance

   •   Better link communications to U.S. foreign policy, national security, and the
       American people




                                                                                       5
   •   Improve the impact and consistency of communications across bureaus, sectors,
       missions, and programs

In addition, P.L. 480 monetization programs are not subject to USAID’s standard
marking requirements because all P.L. 480 programs are regulated under Title 22, Part
211 of the U.S. Code of Federal Regulations entitled Transfer of Food Commodities for
Food Use in Disaster Relief, Economic Development and Other Assistance. As a result,
some missions conducting P.L. 480 monetization programs will not meet the objectives
sought by the Agency’s branding and marking requirements. The former regulations (22
CFR pt. 211) are not consistent with the regulations for marking requirements contained
in USAID’s ADS 320. Consequently, USAID’s P.L. 480 programs are not subject to
USAID’s branding requirements.

At two of USAID/Haiti’s Infrastructure Improvement Program projects, the implementer’s
subgrantees had not placed permanent USAID markings on the rehabilitated roads or on
an irrigation canal that had been improved using USAID monetization funds. In one
case, a Haitian individual told auditors that he believed that an irrigation project in his
community had been funded by the United Nations. As a proactive measure,
USAID/Haiti and its subgrantees plan to place permanent markings, at a minimal cost, at
these two projects and at future projects. Similar conditions were found at
USAID/Mozambique, where development projects involving agriculture were not marked.

According to an official from USAID’s Food for Peace office, the P.L. 480 regulations are
being modified in their entirety and are expected to include modifications that will be
consistent with USAID’s branding requirements. According to the official, however, the
new regulations may not take effect for another 2 years. As a proactive measure, Food
for Peace has made the branding guidelines available on USAID’s Web site to
prospective cooperating sponsors. Moreover, it now requires prospective cooperating
sponsors that submit multiyear proposals to include language stating that prospective
projects must be marked in accordance with USAID branding and marking guidelines.

Because the Food for Peace office is taking proactive steps to ensure that future P.L.
480 projects comply with USAID’s branding requirements, we are not making a formal
recommendation at this time. This audit report is emphasizing this problem, however,
because audits at two missions revealed unmarked USAID projects. Consequently, the
risk exists that the objective of furthering U.S. foreign policy in countries where these
programs operate will not be met and that neither the U.S. Government nor the
American people will receive credit for the provision of public resources to achieve the
objectives of enhancing the visibility and value of USAID’s foreign assistance.




                                                                                         6
Figure 1. An irrigation improvement project was not marked as a USAID-funded project. The project was
financed through a third-country monetization program with funds generated in Peru.
Source: Photograph taken in Les Cayes, Haiti, in May 2006 by an Office of Inspector General/Washington
auditor.


Other Matters

All four missions at which audits were performed had audit findings; however, some of
the findings were not directly related the P.L. 480 monetization issues, but rather to
generic USAID program operational requirements. At USAID/Guatemala, the audit
identified issues that related directly to the P.L. 480 monetization program. For example,
this mission’s program depended heavily on sales of only one commodity, thereby
increasing risks related to this commodity’s declining supply or demand. In another
example, this audit found that the mission could benefit from a more competitive sales
approach by seeking approval to move to a market-basket approach. Following a more
competitive sales approach, the mission could sell additional commodities or sell to a
third country, as well as recover program costs from losses that were the buyer’s
responsibility.

At USAID/Mozambique, the audit found that the mission (1) had not performed data
quality assessments to ensure that reported results were reliable and (2) had not
properly documented site visits or verified a sample of the recipients of USAID funds. At
USAID/West Africa in Burkina Faso, the audit found that the mission (1) had not
developed a plan to address a cooperating sponsor’s internal cash flow problem to
mitigate the effects of not achieving planned outputs and (2) had not required the
cooperating sponsors to develop procedures for verifying reported data with source data.
In another audit at USAID/Haiti, the mission (1) had not completed a Strategic Plan that


                                                                                                    7
was approved and (2) had not prepared the associated Performance Management Plan.
A Strategic Plan represents an agencywide commitment to a set of Strategic Objectives
and Intermediate Results to be accomplished by an operating unit. A Performance
Management Plan indicates how management intends to achieve the objectives listed in
the Strategic Plan.

Among the missions, the audit noted differences in the manner in which the USAID
mission programs at Haiti, Guatemala, Mozambique, and West Africa used monetization
funds. At the USAID missions in Haiti, Mozambique, and West Africa, the cooperating
sponsor used significant portions of the funds for development programs. For example,
the mission used the funds to improve roads and irrigation canals in agricultural sections
of Haiti. USAID/Guatemala, however, used the majority of its funds to support
administrative expenses, such as internal transportation, handling, labor, storage, and
warehousing      associated     directly   with   the   distribution    of  commodities.
USAID/Mozambique and USAID/West Africa used significant portions of their monetized
funds for projects that included microfinance, education, and agriculture.

How a mission uses P.L. 480 monetization funds depends on the needs of the mission.
In accordance with the P.L. 480 regulations, missions may use funds for program
development or for administrative expenses related to the direct distribution of
commodities. In this regard, USAID published a field manual in October 1999 as a guide
for cooperating sponsors and which is still in use by missions. USAID’s Monetization
Field Manual - A Guide for Title II Cooperating Sponsors states, in part, the following:

       Monetization is a necessary mechanism for generating the cash needed
       to cover the administrative and programmatic costs associated with food
       security programs. The growth of monetization has been attributed by
       many to the decline in foreign assistance resources. The amount of USG
       [U.S. Government] cash resources available to private voluntary
       organizations and cooperatives to cover costs associated with distributing
       food aid commodities and to implement development programs overseas
       has spiraled downward in recent years. Those PVOs [private voluntary
       organizations] and cooperatives who work in the field of food security
       have been able to compensate, to some extent, for the shortage of dollar
       funding by monetizing Title II agricultural commodity resources. The
       foreign currency proceeds generated through monetization are used to
       cover a wide range of costs, both administrative and programmatic.

Given the range of options available, USAID missions are not expected to use
monetization proceeds in a manner consistent from mission to mission or from year to
year. Furthermore, if U.S. Government resources are expected to continue declining, 5
missions would be expected to increase the monetization of commodities, as well as to
defray associated costs. As a result, the uses of the funds for development programs
would also be expected to increase into the near future.

The pressure to increase monetization proceeds should be balanced by another factor—
that is, the need to reduce harm to local production or markets. An oversupply of

5
 An analysis from the Center for Global Development indicated that the President’s foreign aid
budget for 2008 showed that development assistance traditionally implemented by USAID will
shrink by a third to a little over $1 billion in 2008.


                                                                                            8
commodities can potentially drive down the selling prices for commodities produced
locally. According to USAID’s P.L. 480 Title II Policies and Program Guidelines dated
May 2006, the Office of Management and Budget in recent years has directed USAID to
reduce levels of monetization. The Guidelines state that the Office of Food for Peace, in
accordance with the directives, will scrutinize all proposed monetization activities and
approve only those that address the underlying causes of food insecurity. Proposals that
call for 100 percent monetization of commodities will not be approved because of the
potential adverse impact on local markets.

Given these challenging circumstances, USAID will need to find a proper balance to
increase monetization to meet increasing development demands, with fewer U.S.
Government resources, and without harming local markets or production.




Figure 2. A pineapple growers’ association member shows a pineapple grown by the association. These
farmers grow pineapple off-season through techniques introduced by USAID/Mozambique’s monetization
program.
Source: Photograph taken in Nantuto, Mozambique, in October 2006 by a Regional Inspector
General/Pretoria auditor.




                                                                                                 9
EVALUATION OF
MANAGEMENT COMMENTS
Management had no comments on this report.




                                             10
                                                                            APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted audits at four USAID missions in accordance
with U.S. Government generally accepted auditing standards. These audits were
designed to answer the following question: are USAID’s P.L. 480 nonemergency
monetization activities achieving selected planned outputs?

In conducting these audits, the audit team assessed the effectiveness of USAID’s
internal controls with respect to the nonemergency monetization activities, valued at
$67.9 million, through September 30, 2006. The team identified such internal controls as
the monitoring of monetization activities, approvals of commodity call forwards, and the
management of funds and reporting of data by the cooperating sponsors.

This report summarizes the results of audit work conducted at USAID offices in
Washington, D.C., and at selected overseas USAID missions. The audit fieldwork was
conducted from March 2006 through June 2007 in the following locations:

   •   Washington, D.C.—conducted at USAID’s Food for Peace headquarters from
       March 2006 through June 2007.

   •   Haiti—conducted at the USAID mission and at various P.L. 480 monetization
       sites and offices in Washington, D.C., from May 2 through June 29, 2006.

   •   Guatemala—conducted at the USAID mission and cooperating sponsors’ offices
       from August 8 through August 23, 2006.

   •   Mozambique—conducted at the USAID mission and cooperating sponsors’
       offices from September 26 through October 18, 2006.

   •   West Africa—conducted at the USAID/West Africa Regional Food for Peace
       office in Senegal and cooperating sponsors’ offices in Burkina Faso from
       September 28 through October 3, 2006.

Methodology
To answer the audit objective, the auditors interviewed officials from
USAID/Washington’s Food for Peace office. The team examined relevant laws and
regulations relating to USAID’s P.L. 480 monetization activities, including (1) P.L. 480;
(2) Title 22, Part 211 from the U.S. Code of Federal Regulations; (3) USAID’s Automated
Directives System 320, Branding and Marking; and (4) USAID’s Monetization Field
Manual. The audit team interviewed officials from USAID’s field missions in the selected
countries, as well as officials of the cooperating sponsors. The team examined these
missions’ pertinent documentation, such as Strategic Plans, Annual Reports, and
Performance Management Plans. The team examined documentation from the
cooperating sponsors, including Development Activity Proposals, field visit reports,
Bellmon Analyses that indicate monetization’s impact on local markets, and financial


                                                                                      11
                                                                             APPENDIX I


reports showing the receipts and distributions of funds. In addition, the audit team
conducted site visits to cooperating sponsors’ offices and other activity sites.

The team judgmentally selected key outputs for each selected partner and compared
those output percentages with the audit threshold criteria to determine whether planned
outputs were achieved.

The materiality threshold for this audit was as follows: If 90 percent of the selected
outputs achieved at least 90 percent of the intended output level, the audit objective
would be answered positively. If 80 to 89 percent of the selected outputs achieved 90
percent of the intended output level, the audit objective would be answered positively but
with a qualification. If less than 80 percent of the selected outputs achieved 90 percent
of the intended output level, the audit objective would be answered negatively.




                                                                                       12
                                             APPENDIX II



MANAGEMENT COMMENTS
Management had no comments on this report.




                                                     13
                                                                            APPENDIX III




AUDIT RECOMMENDATIONS
Mission     Recommendations
Haiti          • Complete the 2007/09 Strategic            Plan    and   the   associated
                 Performance Management Plan

              •   Obtain the approval of the Latin America and Caribbean Bureau for
                  the 2007/09 Strategic Plan
Guatemala     •   Seek approval from the Office of Food for Peace to move to a
                  market-basket approach by (1) selling additional commodities, (2)
                  working with a major grain trader, or (3) selling to third countries

              •   Seek approval from the Office of Food for Peace to move its
                  monetization program to an open and competitive approach by
                  relaxing the financial payment requirements so that other buyers
                  can enter the market, replacing the existing commodity, adding
                  other commodities, or taking other measures to move in that
                  direction

              •   Enforce the contract stipulating that the buyer accepts the survey
                  report issued and agrees to the transfer of the oil title at the point of
                  delivery, or change the contract so that the title passes at some
                  other point

              •   Obtain evidence that the cooperating sponsors have reimbursed the
                  program for $252,589 in losses that were the responsibility of the
                  buyer

              •   Ensure that the cooperating sponsors assert force majeure as a
                  defense to the claim from the buyer, recover $40,680 from the
                  buyer, and return the amounts recovered to the program

              •   Work with the cooperating sponsors to negotiate with the
                  Government of Guatemala to permit the cooperating sponsors to
                  retain the taxes paid by the buyer as host country contributions to
                  the program, or negotiate further increases in the Government of
                  Guatemala’s cash contributions in future monetization agreements




                                                                                        14
Mozambique       •   Perform a data quality assessment           for   its   P.L.   480
                     nonemergency monetization program

                 • Communicate to mission staff the importance of, requirement
                   for, and mechanism for properly documenting, field site visits,
                   including the sample verification of data reported by the
                   recipients of USAID funds
West             • Require its cooperating sponsor, Africare, to develop a plan for
Africa/Burkina      addressing the internal cash flow problems to mitigate the
Faso                effect on achieving planned outputs

                 •   Require both cooperating sponsors, Catholic Relief Services
                     and Africare, to develop procedures for verifying reported data
                     with source documentation, documenting key assumptions and
                     calculations, and maintaining documentation to support results
                     and other data reported to USAID

                 •   Require Catholic Relief Services to develop a system that will
                     enable it to determine whether the schools within its school
                     feeding program are visited at least twice per year, as
                     required, and that information indicating frequency of visits and
                     issues encountered during the visits is readily available




                                                                                     15
                                                                    APPENDIX IV



WORLDWIDE AUDIT
REPORTS ISSUED
The following reports were issued as part of the worldwide P.L. 480 nonemergency
monetization program audit and are listed chronologically and are available on the
USAID Web site at http://www.usaid.gov/oig/public/aud_usaid.htm.

Report No. 9-521-06-010-P, Audit of USAID/Haiti’s Management of P.L. 480
   Nonemergency Monetization Program, September 26, 2006.

Report No. 1-520-07-002-P, Audit of USAID/Guatemala’s Management of P.L. 480
   Nonemergency Monetization Program, November 27, 2006.

Report No. 4-656-07-003-P, Audit of USAID/Mozambique’s Management of P.L. 480
   Nonemergency Monetization Program, December 22, 2006.

Report No. 7-624-07-001-P, Audit of USAID/West Africa’s Management of P.L. 480
   Nonemergency Monetization Program in Burkina Faso, February 22, 2007.




                                                                               16
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Avenue NW
          Washington, DC 20523
             Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
